NO:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
FABIAN PERPALL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I hereby certify that on this 4th day of June, 2021, a true copy of Petitioner
Fabian Perpall’s Petition for a Writ of Certiorari, Appendix, and Motion to Proceed
In Forma Pauperis was mailed through the United States Postal Service, first-class
mail, postage prepaid, to Elizabeth Prelogar, Acting Solicitor General of the United
States, Office of the Solicitor General, U.S. Department of Justice Room 5616, 950
Pennsylvania Avenue, N.W., Washington D.C. 20530.

/s/
Timothy Cone
Counsel for Petitioner Anderson Jean
1615 New Hampshire Avenue N.W.
4th floor (North)
Washington, D.C. 20009
Tel. (202) 862-4333

